<html>
<title> - [H.A.S.C. No. 111-42] AIR SOVEREIGNTY ALERT OPERATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                         [H.A.S.C. No. 111-42] 

                    AIR SOVEREIGNTY ALERT OPERATIONS 

                               __________

                                HEARING

                               BEFORE THE

                         READINESS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 22, 2009


                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-109 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 

                                     
  















                         READINESS SUBCOMMITTEE

                   SOLOMON P. ORTIZ, Texas, Chairman
GENE TAYLOR, Mississippi             J. RANDY FORBES, Virginia
NEIL ABERCROMBIE, Hawaii             ROB BISHOP, Utah
SILVESTRE REYES, Texas               MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
HANK JOHNSON, Georgia                K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  FRANK A. LoBIONDO, New Jersey
LARRY KISSELL, North Carolina        MICHAEL TURNER, Ohio
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
                Cathy Garman, Professional Staff Member
                Lynn Williams, Professional Staff Member
                     Megan Putnam, Staff Assistant




















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, April 22, 2009, Air Sovereignty Alert Operations......     1

Appendix:

Wednesday, April 22, 2009........................................    29
                              ----------                              

                       WEDNESDAY, APRIL 22, 2009
                    AIR SOVEREIGNTY ALERT OPERATIONS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Forbes, Hon. J. Randy, a Representative from Virginia, Ranking 
  Member, Readiness Subcommittee.................................     3
Ortiz, Hon. Solomon P., a Representative from Texas, Chairman, 
  Readiness Subcommittee.........................................     1

                               WITNESSES

D'Agostino, Davi M., Director, Homeland Defense and Emerging 
  Threats and Warfare, Defense Capabilities and Management Team, 
  U.S. Government Accountability Office..........................     4
Darnell, Lt. Gen. Daniel J., USAF, Deputy Chief of Staff for Air, 
  Space and Information Operations, Plans and Requirements, U.S. 
  Air Force......................................................     8
Verga, Peter F., Deputy Under Secretary of Defense for Policy 
  Integration and Chief of Staff, U.S. Department of Defense.....     6
Wyatt, Lt. Gen. Harry M., III, USAF, Director, U.S. Air National 
  Guard..........................................................     8

                                APPENDIX

Prepared Statements:

    D'Agostino, Davi M...........................................    39
    Darnell, Lt. Gen. Daniel J...................................    58
    Forbes, Hon. J. Randy........................................    37
    Ortiz, Hon. Solomon P........................................    33
    Verga, Peter F...............................................    54
    Wyatt, Lt. Gen. Harry M., III................................    63

Documents Submitted for the Record:

    GAO Report, Homeland Defense--Actions Needed to Improve 
      Management of Air Sovereignty Alert Operations to Protect 
      U.S. Airspace..............................................    71

Witness Responses to Questions Asked During the Hearing:

    Mr. Taylor...................................................   129

Questions Submitted by Members Post Hearing:

    Mr. Bright...................................................   134
    Mr. Franks...................................................   133
    Ms. Giffords.................................................   133
                    AIR SOVEREIGNTY ALERT OPERATIONS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                    Readiness Subcommittee,
                         Washington, DC, Wednesday, April 22, 2009.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2118, Rayburn House Office Building, Hon. Solomon P. Ortiz 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. SOLOMON P. ORTIZ, A REPRESENTATIVE 
          FROM TEXAS, CHAIRMAN, READINESS SUBCOMMITTEE

    Mr. Ortiz. Good morning. And welcome to the hearing on air 
sovereignty alert (ASA) operations.
    During the Cold War we had planes standing alert to protect 
us from potential air threats from the former Soviet Union. The 
Cold War ended, we felt safe, and we no longer really needed 
the ASA mission.
    Our comfortable security suddenly changed on September 11, 
2001. Following the tragic day, that tragic day, the Department 
of Defense (DOD) initiated Operation Noble Eagle. Now 
protection of our airspace from internal threats is our number 
one defense priority.
    The Department issued several policy memos and gave the 
responsibility for carrying out the new ASA mission to the 
North American Aerospace Defense Command, or NORAD. Although 
neither DOD nor NORAD ever specified which service should 
support the ASA mission, the Air Force currently provides 100 
percent of the fighter aircraft. The mission is conducted at 18 
ASA sites across the United States with the Air National Guard 
operating out of 16 of those sites.
    The basic crews involved in the ASA mission have been 
tested several times, most recently when a plane was stolen in 
Canada and flown across the border into the United States. The 
plane was intercepted and finally landed on a Missouri--
Missourah, I have to follow Chairman Skelton's pronunciation--
highway. The pilot was caught after he tried to flee the scene.
    All this should make us feel somewhat secure knowing that 
our space is well protected. So why are we here this morning? 
We are here because appearances are not always reality. This is 
a high-priority mission for which the Air Guard has 
volunteered, but the funding, which comes from active duty Air 
Force accounts, historically has not been allocated on a timely 
basis. This raises serious challenges for the Guard related to 
hiring personnel and providing the necessary training to ensure 
the readiness of the crew supporting this mission.
    Last year, because of our concern that this mission was 
being ignored by the active duty Air Force, the committee 
proposed language to address the funding and personnel 
situation. Section 354 of the fiscal year 2009--the Duncan 
Hunter National Defense Authorization Act requires the 
Secretary of Defense to provide in the Air Force budget 
justification documenting information on funding requirements 
for the mission and associated command and control elements, 
including military personnel costs and flying hours.
    I would be interested to hear from our Air Force witness 
General Darnell this morning how the Air Force is complying 
with that mandate. I recognize that because the full budget has 
not been sent up here yet, we will not be able to discuss 
specifics on funding and aircraft availability. We will have 
those details for a later posture hearing. But I do expect to 
hear that the Air Force is on track to comply with that 
statutory language. And I am sure that General Wyatt, Director 
of the Air Guard, will have a few things to say about this, 
too.
    With that congressional action, we believed we had fixed 
all the problems associated with the ASA mission. We soon found 
out we only scratched the surface. Congress has asked the 
Government Accountability Office (GAO) to do a review of the 
ASA mission. Their report which was issued in January was very 
troubling. I will let the GAO speak for itself and tell us in 
detail what they found, but I would like to highlight a few 
findings that bothered me the most.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Ortiz. Mission document statements do not include the 
ASA responsibility for the Air Guard. Since this is ignored in 
the mission statements, the readiness of the units for the ASA 
mission is not adequately considered. NORAD does not conduct 
routine operation risk assessments, so we do not have a good 
idea in terms of what is really needed in terms of personnel, 
aircraft and types of units to perform the mission. The Air 
Force has not implemented ASA operations as a steady-state 
mission because they felt it would not be a lasting mission.
    I am also concerned that the Department's responses to the 
GAO's findings and recommendations were noncommittal. It is my 
understanding that NORAD and the Air Force provided comments to 
the Department on actions that they intended to take, but that 
those comments were not included in the DOD response. That 
might explain why the DOD response was unsatisfactory. 
According to DOD policy, the ASA mission is our number one 
priority. Mr. Verga can provide us a better explanation than 
what the Department gave to GAO on how the DOD intends to 
maintain ASA as DOD's number one priority mission.
    Now I would like to turn to my good friend from the 
Commonwealth of Virginia, Randy Forbes, for an opening 
statement. Mr. Forbes.
    [The prepared statement of Mr. Ortiz can be found in the 
Appendix on page 33.]

   STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE FROM 
        VIRGINIA, RANKING MEMBER, READINESS SUBCOMMITTEE

    Mr. Forbes. Thank you, Mr. Chairman. And I just want to say 
that I share your concerns regarding this issue. And I would 
like to thank all of our witnesses for being here today and for 
sharing your expertise with us and for your service to our 
country.
    As the Chairman mentioned, we learned a lot of lessons on 
September 11, 2001. We learned that a small group of nonstate 
actors could take thousands of American lives by attacking us 
from the skies above our homeland when they took a routine 
commercial flight operation and turned it into an extremely 
effective weapon.
    According to the Federal Aviation Administration (FAA), 
there were nearly 680 million passengers on domestic flights 
last year and another 154 million flying between the U.S. and 
the rest of the world. To put it in perspective, that is more 
than the total populations of the United States, Japan, Russia, 
Mexico, Canada and the United Kingdom combined. And this number 
does not include nearly 28 million air hours flown by the fleet 
of more than 234,000 general aviation aircraft owned by private 
pilots and flight schools around the country.
    Mr. Chairman, I raise this point because I think it is 
important that we all understand the scope of the problem and 
the enormous security challenges that we face. Although the 
Department of Homeland Security (DHS), the Transportation 
Security Administration (TSA) and their international 
counterparts have taken great strides to increase aviation 
security, it is imprudent to believe that their actions will 
completely mitigate the risk should someone attempt to do us 
harm. With over 830 million commercial passengers flying 
annually in and around the United States, the scope of the 
problem is too large, and the consequences are too great.
    You mentioned the incident last week involving the general 
aviation aircraft that was stolen from Canada and flown into 
U.S. airspace. I certainly want to applaud all those involved 
in the response and the resolution of that situation.
    I also want to highlight that just this Monday, a Canadian 
passenger jet with 159 passengers and 8 crew members on board 
was hijacked by a lone gunman who, according to initial press 
reports, somehow made it past security. Fortunately the police 
were able to gain control of that situation while the plane was 
still on the ground.
    Although neither of these events appear to be linked to any 
terrorist organization, they do highlight that current security 
measures are not impenetrable. Our skies and our citizens are 
still vulnerable to those wishing to do us harm.
    With that said, I find the issues at the heart of today's 
hearing concerning. The findings in the GAO report and the 
lackluster response from the Department of Defense require our 
attention. And I am thankful to you, Mr. Chairman, for holding 
this hearing. I am hopeful that we have got the right set of 
witnesses here to address the issues, and I would like to 
welcome once again each of them to the committee today.
    Today's hearing focuses on the policy and resourcing 
shortcomings between the Office of the Secretary of Defense 
(OSD), the Air Force and the Air National Guard. But I know, 
Mr. Chairman, that we both agree that NORAD and Northern 
Command (NORTHCOM) also play a critical role in the execution 
of the air sovereignty alert mission. As we go through the 
course of the hearing today, we may find that we will also need 
to have a direct discussion about the air sovereignty mission 
with them as well.
    Several of our subcommittee members have worked hard in 
this area, and we recognize their contributions. I thank Mr. 
LoBiondo for his work in this area. And we look forward to 
their continuing efforts. And, Mr. Chairman, I now look forward 
to hearing from our witnesses, and I yield back the balance of 
my time.
    [The prepared statement of Mr. Forbes can be found in the 
Appendix on page 37.]
    Mr. Ortiz. Thank you. I would like to welcome our 
witnesses, and thank you for taking the time to appear this 
morning. Today we have with us Ms. Davi M. D'Agostino, Director 
of Homeland Defense and Emerging Threats and Warfare, Defense 
Capabilities and Management Team, United States Government 
Accountability Office. Thank you very much for joining us.
    Mr. Peter F. Verga, Deputy Under Secretary of Defense. 
Thank you, Mr. Verga.
    Lieutenant General Daniel J. Darnell, United States Air 
Force, Deputy Chief of Staff for Air, Space and Information 
Operations, Plans and Requirements. Thank you, sir, for joining 
us.
    And Lieutenant General Harry M. Wyatt, United States Air 
Force, Director of the United States Air National Guard.
    Welcome, Ms. D'Agostino. Whenever you are ready, you can 
begin your testimony.

STATEMENT OF DAVI M. D'AGOSTINO, DIRECTOR, HOMELAND DEFENSE AND 
    EMERGING THREATS AND WARFARE, DEFENSE CAPABILITIES AND 
     MANAGEMENT TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. D'Agostino. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Forbes and members of the 
subcommittee, I am pleased to be here before you this morning 
to discuss GAO's January 2009 report on opportunities to 
improve management of North American Aerospace Defense 
Command's, or NORAD, and Department of Defense's, or DOD, air 
sovereignty alert operations. We will be calling them ASA going 
forward.
    NORAD and DOD have fueled and armed fighter aircraft and 
trained personnel on constant alert at 18 sites across the 
United States. Given the continued air threat, it is crucial 
for this capability to function at a high level of readiness.
    As you noted, Mr. Chairman, currently the Air Force 
provides NORAD with personnel and equipment for these 
operations, including F-16 and F-15 aircraft. Air sovereignty 
alert units are tasked to conduct and train for both their 
overseas and homeland operations. ASA operations are ground 
operations that take place before the aircraft go airborne. 
These operations support multiple missions, including the Joint 
Staff's Operation Noble Eagle, in addition to NORAD's homeland 
defense contingency plans.
    Today I will address the following three questions. First, 
does NORAD routinely conduct risk assessments to determine its 
ASA operational requirements? Second, has the Air Force 
implemented ASA operations as a steady-state mission in 
accordance with NORAD, DOD and Air Force guidance? Third, has 
the Air Force developed a plan to address the potential 
aircraft shortfalls to sustain ASA operations for the future?
    First, NORAD had performed three risk assessments in 
response to individual DOD leadership requests about ASA 
operations, but the last one was done in 2006. Such risk 
assessments, if done on a routine basis, could help NORAD 
determine the appropriate levels and types of resources for the 
mission, and particularly, this is important, in a resource-
constrained environment.
    Second, at the time of our review, the Air Force had not 
implemented ASA operations as a steady-state mission. Because 
it is not treated as such, the Air Force programmed money for 
ASA operations in two-year increments. This has been the case 
even though DOD in December 2003 directed the Air Force to 
program money across the six-year future years defense program 
submissions.
    This incremental funding, the two years versus a six-year 
approach, apparently has created several challenges for the ASA 
units. Unit commanders we interviewed identified funding, 
personnel and dual tasking of responsibilities as the top three 
factors affecting their ability to perform these operations. 
Seventeen of the twenty units that we talked to said that 
personnel issues were a moderate or great concern, and that 
recruiting, retention and promotion limitations were the 
primary issues due to the two-year funding approach. Some 
commanders even told us that they had lost some of their most 
experienced personnel due to job instability caused by the two-
year funding approach.
    Finally, a key consequence of not being a steady-state 
mission was that the readiness of the units to conduct these 
operations is not being fully assessed. NORAD partially 
assessed readiness through individual inspections that they do 
about every 20 months, but the Air Force, which is a force 
provider, is not monitoring readiness for these operations on 
an ongoing basis. And what is fundamentally important, as you 
noted, Mr. Chairman, this mission is not on the mission 
Designed Operational Capability (DOC) statements for the units, 
and therefore it is not being measured in the readiness system, 
or Status of Resources and Training System (SORTS).
    Finally, at the time of our review, the Air Force did not 
have a plan to manage potential aircraft shortfalls to sustain 
ASA operations for the future. We identified a potential 
shortfall in the number of available aircraft that could affect 
units performing ASA operations. Our analysis does have some 
assumptions based on information that DOD provided us and 
assumes the Air Force would provide F-35s to all the Air 
National Guard units doing ASA operations. I would point out, 
though, we recently reported that the F-35 acquisition program 
may face schedule slippage risks because of this production 
schedule. Until we see Air Force plans for managing this 
difficult situation with the competing demands for the new 
aircraft, it is unclear to us whether replacement aircraft will 
be available to mitigate the potential fighter shortfall for 
conducting ASA in the homeland.
    I would like to just mention that we made several 
recommendations, which you went through briefly, sir, and even 
though DOD agreed or partially agreed with our report's 
recommendations, we couldn't tell what actions they were going 
to take.
    Mr. Chairman, members of the subcommittee, this concludes 
my prepared statement.
    [The prepared statement of Ms. D'Agostino can be found in 
the Appendix on page 39.]
    Mr. Ortiz. Thank you. Mr. Verga.

STATEMENT OF PETER F. VERGA, DEPUTY UNDER SECRETARY OF DEFENSE 
 FOR POLICY INTEGRATION AND CHIEF OF STAFF, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Verga. Thank you, Mr. Chairman.
    Chairman Ortiz, Congressman Forbes, members of the 
subcommittee, thank you for the opportunity to address you 
today on the Department of Defense protection of the air 
sovereignty of the United States. As reflected in the National 
Defense Strategy, the core responsibility of the Department of 
Defense is to defend the United States from attack upon its 
territory at home and to secure its interests abroad. The U.S. 
Armed Forces protect the physical integrity of the country 
through an active layer of defense. They also deter attacks 
upon it directly and indirectly through deployments at sea, in 
the air, on land and in space.
    Within the Department of Defense, our responsibility to 
defend the United States is assigned to the binational U.S.-
Canada North American Aerospace Defense Command. NORAD provides 
aerospace warning, aerospace control, including air 
sovereignty, and maritime warning for all of North America. 
Consistent with the law, the Secretary of Defense assigns 
forces to the United States Element of NORAD to perform its 
assigned mission, and ensures that such assignments are 
consistent with the force structure prescribed by the 
President.
    During the Cold War NORAD focused its defense of the United 
States on air threats, originating from nation states. Although 
the probability of a nation state air attack has greatly 
lessened, the Secretary of Defense has said, quote, the United 
States still has to contend with the security challenges posed 
by the military forces of other countries, from those actively 
hostile to those at strategic crossroads, and the United States 
military must be able to dissuade, deter and, if necessary, 
respond to challenges across the spectrum, including the armed 
forces of other nations.
    Since the attacks of September 11th, 2001, when terrorists 
hijacked civilian airliners and used them as weapons against 
innocent civilians, NORAD's focus has expanded to include 
terrorist air threats originating from within as well as 
outside the United States. Terrorists remain the preeminent air 
threat to the United States. As observed by President Obama 
during his Inaugural Address, our Nation is at war against a 
far-reaching network of violence and hatred. NORAD's vigilance 
against potential attacks from within and from outside the 
United States is a critical distinction between our air defense 
posture pre-9/11 and post-9/11.
    Collectively the interagency of the Government of the 
United States provides 20 layers of security to enhance the 
security in the aviation domain. And while no system is fail-
safe, collectively these security measures have created 
multiple barriers, thereby reducing the likelihood of a 
successful attack using the air domain.
    Through Operation Noble Eagle, NORAD defends the United 
States by surveilling U.S. airspace and the Nation's air 
approaches, and by positioning air defense alert fighters 
throughout the country. These alert fighters, whose numbers may 
be adjusted to meet changing threat levels, are capable of 
reaching targets threatening our Nation's major population 
centers and national critical infrastructure within minutes to 
dissuade, deter and, if necessary, defeat air threats. 
Supporting and complementing these alert fighters are defense 
and Federal Aviation Administration surveillance radars, 
airborne early warning aircraft and supporting tanker aircraft.
    In addition, in defense of the National Capital Region, the 
seat of our government, Operation Noble Eagle conducts air 
patrols; maintains a dedicated 24-hour, 7-days-a-week alert 
fighter response at Andrews Air Force Base; and operates a 
dedicated around-the-clock ground-based air defense missile 
system. In addition, the United States Coast Guard supports 
NORAD with alert helicopters to intercept low- and slow-flying 
aircraft should they penetrate the National Capital Region air 
defense zone.
    In 2005, DOD employed a unique visual warning system in the 
National Capital Region to supplement traditional radio 
communications to warn wayward pilots to contact FAA air 
traffic controllers immediately and to exit National Capital 
Region restricted airspace they may have violated.
    Currently, to facilitate interagency cooperation, DOD 
maintains liaison officers in the TSA-hosted National Capital 
Region Coordination Center on a full-time basis and provides 
key interagency operation centers and the National Capital 
Region Coordination Center access to DOD's classified 
conferencing capability, which is used for DOD coordination and 
decisionmaking during their response to domestic air threats.
    Operation Noble Eagle is a joint operation managed under 
the Global Force Management Plan to provide timely, risk-
balanced resourcing to NORAD requirements for capabilities and 
forces. DOD ensures that the air sovereignty force furnishes 
capabilities consistent with U.S. national security objectives 
and a long established risk management system in conjunction 
with the Global Force Management Plan. Although the Global 
Force Management Plan currently directs the U.S. Air Force to 
support the Operation Noble Eagle mission, the majority of 
which is currently provided by the Air National Guard, the 
Department may draw upon capabilities of active duty Air Force 
or any other DOD component to fill the Operation Noble Eagle 
air sovereignty mission with U.S. Navy E-2 Hawkeye Airborne 
Early Warning aircraft or U.S. Marine Corps F/A-18s.
    DOD will also continue to refine its risk management 
approach to ensure that military capabilities and resources are 
available to carry out its core responsibility to defend the 
United States. As stated in the National Defense Strategy, the 
challenges before us will require resourcefulness and an 
integrated approach that wisely balances risks and assets, and 
that recognizes where we must improve.
    Again, thank you for the opportunity to appear before you 
today. We appreciate your leadership, Mr. Chairman and members 
of the subcommittee, and your continued support for the 
Department of Defense, and I look forward to your questions.
    [The prepared statement of Mr. Verga can be found in the 
Appendix on page 54.]
    Mr. Ortiz. Thank you, sir. General Darnell.

STATEMENT OF LT. GEN. DANIEL J. DARNELL, USAF, DEPUTY CHIEF OF 
  STAFF FOR AIR, SPACE AND INFORMATION OPERATIONS, PLANS AND 
                  REQUIREMENTS, U.S. AIR FORCE

    General Darnell. Good morning, Chairman Ortiz, Ranking 
Member Forbes and distinguished members of the committee. Thank 
you for calling this hearing and for the opportunity to discuss 
Air Force air sovereignty operations.
    The January 2009 Government Accountability Office report 
focuses on a vital mission area that has been a part of the Air 
Force and Air National Guard for over 50 years. The GAO report 
provides useful recommendations the Air Force can take to 
better support ASA operations. We have analyzed the GAO 
findings and are working to comply with the recommended 
actions. The Air Force stands ready to win today's joint fight 
and plan for tomorrow's challenges.
    I thank the subcommittee for allowing me to appear before 
you today and for your continued support of the Air Force. I 
look forward to your questions.
    [The prepared statement of General Darnell can be found in 
the Appendix on page 58.]
    Mr. Ortiz. General Wyatt.

STATEMENT OF LT. GEN. HARRY M. WYATT III, USAF, DIRECTOR, U.S. 
                       AIR NATIONAL GUARD

    General Wyatt. Thank you, Chairman Ortiz, Ranking Member 
Forbes and members of the committee.
    Secretary Gates wrote in the 2008 National Defense 
Strategy, and I quote, a core responsibility of the U.S. 
Government is to protect the American people, in the words of 
the framers of our Constitution, to provide for the common 
defense, closed quote. As we sit here today, nearly 3,000 men 
and women of the Air National Guard are protecting the skies 
over our heads. This includes Air Guard members manning first 
Air Force and its air defense sectors and operation centers; 
and the air crews, maintenance personnel and other support 
personnel at 16 of the 18 U.S. air sovereignty alert sites 
throughout the United States.
    The January GAO report focused on the air sovereignty 
alert, those sites that were conducting steady-state ASA 
operations up through September of 2008. I would like to put a 
face to some of the Air National Guard challenges associated 
with ASA.
    As, Mr. Chairman, you indicated, at 2:55 p.m. On April 6th, 
a Cessna 172 was stolen from an airport in Thunder Bay, 
Ontario, Canada. It entered U.S. airspace over Michigan's Upper 
Peninsula at 4:23, and at 4:43 it was intercepted by two F-16s 
from the 148th Fighter Wing, Duluth, Minnesota, Air National 
Guard. I would point out to the committee that the first 
responding aircraft are the oldest aircraft and the first 
aircraft to age out, which we anticipate will happen in fiscal 
year 2015.
    As the pilot flew over Minnesota south through Wisconsin, 
Illinois and Missouri, escort duty was then handed off to the 
115th Fighter Wing, Wisconsin Air National Guard. And we have a 
member of that unit with me today. Seated behind me is Staff 
Sergeant West Chadwick. He was a member of the air sovereignty 
alert team that performed that mission. And I will tell you 
more about Staff Sergeant Chadwick here in just a second.
    Subsequent to the Wisconsin Air National Guard, the 
Louisiana Air National Guard F-15 picked up the mission, and 
throughout the mission tanker support, in-flight refueling was 
provided by the 117th Air Refueling Wing, Alabama Air National 
Guard. By the way, they were flying a 50-year-old aircraft.
    While this incident ended well, it demonstrates several 
important points that the Chairman has already recognized: 
First, that the threat to U.S. sovereignty from the air has 
moved beyond Soviet bombers to include aircraft on domestic 
flights, as we learned on September 11, and slow-flying, low-
altitude planes, such as the Cessna 172. What is next? Perhaps 
Unmanned Aerial Vehicles (UAVs), cruise missiles launched from 
offshore, and surely the maritime threat.
    We must not again underestimate the ingenuity and 
technological capability of our adversary. As the September 
11th Commission aptly noted, beware the failure of imagination. 
These threats require different defensive capabilities, 
including modernizing and recapitalizing both our fighter and 
aerial refueling aircraft fleets, and rethinking about how this 
mission is sustained in the terms of funding and personnel.
    I would submit to you that ASA is a system of systems, 
including surveillance radar, early warning systems, command 
and control and communication systems, certainly the fighters, 
which get a lot of the attention, but the tanker fleet also and 
the Airborne Warning and Control (AWAC) System. But I submit to 
you that the most important part of this system are the 
dedicated professionals, the people, that accomplish this 
mission.
    You are well aware of the challenges that the U.S. Air 
Force has in modernizing and recapitalizing both its fighter 
and refueling fleets. We have been working closely with the Air 
Force and their planning, but to date there are no firm plans 
to replace the Air National Guard F-15 and F-16 fleet currently 
protecting our skies. The ASA fleet in the Air National Guard 
is among the oldest and therefore the most at-risk force that 
we have.
    Over the last several years Congress has been very helpful 
in funding Air National Guard's ASA radar modernization 
program. This program requires continued attention if we are to 
meet today's threats and bridge capabilities to the next 
generation of fighter aircraft. ASA is essential to improve 
both capability and sustainment. For example, if the Cessna had 
entered U.S. airspace in a high-traffic area such as New York, 
it would have been very difficult for the older F-16s to find, 
identify and track it with the older radar systems that they 
had.
    The aging KC-135 fleet, as you are well aware, is 
especially critical for the Air National Guard not just for the 
ASA mission, but for the fight overseas. The ASA mission is 
dependent upon air refueling, and the Air National Guard has 
some of the oldest KC-135s in the total force fleet. Example: 
The 117th that performed in this mission with a 50-year-old 
aircraft.
    The most important part of ASA, as I indicated, is our 
people. On an average day there are more than 1,600 Air 
National Guard men and women performing the ASA mission in 
Title 32 status. That includes not only fighter pilots, but 
aircraft weapons maintenance, life support specialists, intel 
specialists, security forces, and avionic specialists such as 
Staff Sergeant Chadwick.
    The GAO report states the Air Force has not implemented ASA 
operations as a steady-state, ongoing and definite mission. For 
the Air National Guard this translates into two primary issues, 
the first, funding a lack of consistent predictable funding; 
and second, the equipment part that we mentioned earlier.
    Funding affects our people in various ways. Many of those 
manning the alert sites are on temporary Active Guard and 
Reserve tours. Two-year funding means that these people are on 
two-year contracts that end at the end of September. The next 
one will be this September. They do not know if they will have 
a job after their contract ends. They don't know what to tell 
their civilian employers; are they returning to work, or are 
they not? In fiscal year 2008, only 772 of our required 922 Air 
Guard Reserve (AGR) positions were funded. The difference is 
filled with traditional guardsmen on mandates, and they are 
caught in that same predicament: Do they have a job, or do they 
not?
    Staff Sergeant West Chadwick has joined me here today. He 
is an avionic specialist with the 115th Fighter Wing, Wisconsin 
Air National Guard. I would ask that he stand as I relate to 
you his personnel situation, but it is a situation that is 
echoed throughout the gallant people that are performing this 
mission. He helped prep and launch the alert birds that 
intercepted the aircraft intruder on 6 April. He is an example 
of the outstanding guardsmen who are personally impacted by the 
lack of consistent funding and planning for this mission.
    From October 2005 to September 2007, Sergeant Chadwick 
worked ASA at Truex Field as a temporary AGR on Title 32 
orders, but he didn't know if his job was going to continue 
past September 31st of that year because of a lack of funding. 
He therefore volunteered for his wing's Aerospace Expeditionary 
Force (AEF) rotation in the theater. And that is a key point, 
because these ASA alert sites flying F-16s and F-15s are also 
involved in the United States Air Force AEF rotation. It is not 
only an ASA fleet strictly, it is one that we use in the AEF 
rotations also.
    But he volunteered to go to Balad in January through March 
of 2008. In the meantime, from October of 2007 to January of 
2008, he entered college; no income, no health coverage, and he 
married in December of 2008. He returned from Iraq in April and 
was offered another temporary AGR tour from May through 
September of 2008, when the funding ended again. His orders 
were late arriving, so he didn't go on duty until June 5th, so 
he went for two months without pay. He eventually received some 
back pay, but he lost TRICARE coverage during that period of 
time. He has deployed one other time on an AEF rotation, and, 
as he sits here today, has volunteered yet for a third time. 
Because his unit must sustain ASA even as the rest of the unit 
deploys for their AEF rotation, the unit must first find a 
volunteer to replace Staff Sergeant Chadwick in his ASA job.
    I would like to personally thank Sergeant Chadwick for his 
dedicated service and perseverance. Thank you very much.
    In conclusion, Mr. Chairman, I would submit that the 
homeland defense mission is the primary mission of the 
Department of Defense. ASA is a primary component of that 
homeland defense mission, but we in the Department of Defense 
need to work together to better ensure the long-term viability 
of the capability.
    The United States Air Force today has the power and the 
ability to fix both of these problems, first by funding within 
the Future Years Defense Plan (FYDP), and, second, assisting in 
the recapitalization of the Air National Guard early, but not 
late. Recapitalization of ASA is recapitalization of the United 
States Air Force. It should not be viewed as competitive, but 
rather complementary to the recapitalization of the Air Force, 
because when you recapitalize the ASA fleet, you are 
recapitalizing those same jets that perform the AEF mission. 
The Air Force can have its cake and eat it, too, with early 
recapitalization of the Air National Guard.
    Mr. Chairman and members of the committee, I thank you for 
your time and support. I look forward to your questions.
    [The prepared statement of General Wyatt can be found in 
the Appendix on page 63.]
    Mr. Ortiz. Thank you, General. Thank you so much for your 
dedication and your commitment. We are proud of you and other 
members of the Air Force, the National Guard and the Air Force, 
for doing a tremendous job in keeping our country free from an 
attack.
    This reminds me. I come from Corpus Christi, and we are 
prone to hurricanes, and they can strike with a devastating 
force. But then after it strikes, there is a calm until the 
backside of the eye of the storm hits you again. And thank God 
that we have been--I guess because of the work that you have 
done--that we have not been attacked again.
    But as I was listening to this mower cut the grass, I 
thought somebody was intruding into our airspace. But thank you 
so much for your testimony.
    Now, I would like, beginning with Secretary Verga, to ask 
questions about how is the Air Force intending to comply with 
section 354 of the fiscal year 2009 and the double A?
    Mr. Verga. Well, Mr. Chairman, I know that it was our 
understanding that the Air Force was, in fact, preparing the 
necessary budget display materials to allow the committee the 
information that it required. I am actually not personally 
prepared to say what the Air Force is doing. I would ask that 
the General address that specifically. But that is what we need 
to do is to give you the information that is necessary.
    Mr. Ortiz. General Darnell.
    General Darnell. Mr. Chairman, we have read the language. 
Our intent is to comply. You should see the information broken 
out in the documents that come over for the budget, and we feel 
like it is exactly what the committee is looking for.
    So as I said before, the intent is to comply. It is our 
first attempt to ensure you have got the information you need. 
We will certainly work with your staff if there is any other 
visibility that is required.
    Mr. Ortiz. And this very important to us. This committee 
has a huge responsibility, number one, to provide what you all 
need to defend our country, our skies, and be ready to dispose 
of anybody who might be trying to attack.
    Let me ask GAO a question. Unless, General, do you have any 
comments? The GAO, I want to ask them a question to see do you 
believe DOD's comments to your report were responsive to your 
findings and recommendations?
    Ms. D'Agostino. Mr. Chairman, we noted that DOD did concur 
or partially concur with each recommendation, which we always 
appreciate. But normally when they really do concur, they tell 
us what they plan to do to implement the recommendation and 
when they plan to do it by. In this case we did not have a lot 
of that kind of response in the discussion or the narrative of 
the comments.
    Mr. Ortiz. And I wonder why there was not adequate response 
to the question from GAO.
    Mr. Verga. As Ms. D'Agostino said, we did--the primary 
office with responsibility for this bureaucratically in the 
Department of Defense is the Office of the Inspector General 
handles the staffing of GAO reports, and then it goes down to 
an office that has a substantive expertise on it. In this case 
it is the Office of the Assistant Secretary of Defense for 
Homeland Defense and America's Security Affairs. That is the 
office that did, in fact, concur or partially concur in the 
recommendations, agreeing with the needs as stated by the GAO, 
but not necessarily the specific courses of action that were 
recommended.
    We have, in fact, responded to a bunch of follow-up 
questions that we had with the GAO, trying to work together 
with them. My understanding is to date we have not had the sort 
of back-and-forth on those responses to the additional 
questions. But I assure you that when we concur with a 
recommendation or partially concur, partially concur meaning we 
agree with what you said but not necessarily the remedy that 
you suggested, that we will, in fact, follow up on them.
    Mr. Ortiz. I would like to ask GAO do you agree? It is not 
that I am trying to put anybody or picking on you guys. This is 
not our intent. But what we are trying to do is to get to the 
bottom of this so that we can give you what you need and so 
that we--and you all to comply with the direction of what the 
Congress gave you. So, ma'am, if you could.
    Ms. D'Agostino. If I could just draw on a specific example 
to explain.
    Mr. Ortiz. Could you get closer to the mike?
    Ms. D'Agostino. Sure.
    If I could just draw on a specific example of the DOD 
comments to one of our recommendations that was a little 
confounding for us. We recommended that the Secretary of 
Defense (SECDEF) direct the Secretary of the Air Force to 
formally assign the air sovereignty alert mission to the units 
that are performing those operations at steady-state sites and 
then ensure that their readiness is measured. The DOD response 
was, we partially concur; we are furnishing clear direction 
through the Operation Noble Eagle execution order. And they 
indicated they might review the execution order at some later 
date. But our situation was you don't have to review the 
execution order to have the Air Force assign the mission to the 
unit.
    So it was confounding to us, very confusing, in terms of 
why they brought up the execution order for Operation Noble 
Eagle, which isn't the only foundation for the ASA operations, 
as you know. And so it was very confusing to us, and it remains 
so today. So we just wanted somebody to direct the Air Force to 
assign the mission, it was pretty straightforward, and measure 
the readiness, and then we got this execute order (ex-ord) 
discussion, which doesn't really apply to the recommendation, 
because you can fix the problem without changing the execute 
order, okay? Does that help?
    Mr. Ortiz. That helped. But let me just ask one more 
question, and then I would like to allow some of our Members 
who have other important questions.
    What concrete actions would the Air Force take after 
today's hearing to ensure that the ASA operations are 
implemented as a steady-state mission?
    General Darnell.
    General Darnell. Mr. Chairman, I will answer that question. 
Ms. D'Agostino's point--and when you talk about ex-ord and the 
fact that she didn't feel like it really gave her the detail 
that she needed--what we really need to do is to assign the 
mission via DOC statements in the squadrons, which we are in 
the process of doing. Just talking with my staff this morning, 
Air Combat Command (ACC) has been working with the Air National 
Guard. All but two of the ASA units have submitted their 
recommendations for DOC statement tasking. We should have that 
wrapped up, we hope, by late summer, early fall.
    But when you have a DOC statement that assigns a mission, 
then lots of other things fall in place. You are inspected on a 
regular basis. You are trained and organized and funded and 
resourced according to your DOC statements. This speaks to 
General Wyatt's point, frankly, about the funding not being 
long term. And I agree with his statement; I agree with the 
GAO's finding as well. So I already talked to the resource 
managers in the Air Force. We are already working to make this 
a long-term funding mission for the Air Force versus the two-
year construct that we have right now.
    Mr. Ortiz. And we want to help. Anything that we can do to 
help, whether it is a personnel matter, is it equipment, let us 
know, because we want to work with you. We want to do 
everything we can to protect our country.
    And with that, now I would like to yield to my good friend 
Mr. Forbes for any further questions that he might have.
    Mr. Forbes. Thank you, Mr. Chairman.
    And, first of all, let me start with Sergeant Chadwick. The 
Chairman and I both want to thank you for your service, and we 
appreciate your attendance here today, and we owe you better 
than we have been giving you. And as the Chairman mentioned, we 
are not here to point fingers at anybody. We are here just to 
make sure that Sergeant Chadwick and the other people serving 
our country don't fall between these gaps sometime when we are 
trying to provide for resourcing them.
    The other thing that sometimes frustrates us as we watch is 
we are in negotiations with China from time to time, and they 
always come in every time, and it is the same thing. They spend 
a long period of time just denying something happened, and then 
all of a sudden they start agreeing it happened, but we never 
see them change. And so what we are trying to do here in as 
friendly a way as we can is to say how do we just move this 
ball to make sure it happens?
    And, General Darnell, your statement is probably the best 
statement that we will have here all day. If we can get that 
mission statement assigned, I think this hearing would have had 
a huge importance, because as I look at it, the bottom line is 
prior to September 11th, I think we had about 4 sites operable, 
and then after 9/11 we got, as you testified, about 18 sites 
going.
    There is no question that this is a mission that is going 
to be ongoing, and eight years is probably long enough for us 
to get that picture and to assign it, because the three things 
we are concerned about you mentioned, General: the training, 
the inspection, but also the capitalization. I think if we can 
just assign those missions, the others will probably flow 
through. And so I am just optimistic of hearing that. And that 
was going to be my whole line of questioning, but you have 
answered that.
    The one question I would have for Mr. Verga, just to clear 
up for me, you indicated, if I didn't understand you, that 
Operation Noble Eagle is managed under the Global Force 
Management Plan. I think that is a Joint Forces Command 
(JFCOM)-administered program; is it, or is it not?
    Mr. Verga. The Global Force Management Plan is the dynamic 
process by which the Secretary of Defense, advised by the 
Chairman of the Joint Staff, allocates forces to all the 
worldwide combatant commanders for the missions that are 
assigned to them. That is a process that is ongoing; when we 
decide to do more in Afghanistan, drawdown in Iraq, when we 
decide we have greater air threats against the United States, 
all of the forces worldwide are managed dynamically in terms of 
those which are assigned to the combatant commanders who bear 
responsibility for those various missions.
    Mr. Forbes. Help me with the connectivity here, because, 
and I could be wrong, but as I understand it, when the airmen 
are on alert, they are in Title 32 status, which basically are 
under the States. How do we know that they are there? I mean, 
is this something we just kind of hope for, is it something 
that we kind of guess that they are going to be? How do we 
connect those dots to make sure that that is part of your plan 
if they are sitting in a Title 32 status?
    Mr. Verga. I will defer the specific answers to that, 
though. The Secretary holds the combatant commander who has 
responsibility for the mission responsible for the readiness 
and the ability of the forces to do that mission. He then turns 
to the force providers, either the United States Air Force or 
the Air National Guard component of the Air Force, to organize, 
train and equip those forces for the missions that they may be 
assigned to do.
    The dynamic nature of the Air National Guard providing 
ready day-to-day forces and this Title 32 while you are on 
alert and Title 10 as soon as you take off in the air is a 
process that has worked, to my understanding, very effectively 
over the years. It has never been brought to my attention that 
we have ever had a problem with being assured on the readiness. 
We see reports every day on the numbers of fighters and all 
those things like that, but I will turn to the general to give 
me the specifics.
    General Wyatt. Mr. Forbes, this may help a little bit. I 
think the root of the problem goes back as far as the Global 
Force Management (GFM). Global Force Management goes back to 
the issue with the DOC statements. The management of personnel 
through GFM relies heavily upon DOC statements for resourcing 
of the people. If you have a DOC statement, that is the 
beginning document that results in the assignment of manpower, 
assignment of equipment, determination of minimum essential 
task listings that the unit has to do, unit tasking codes; that 
sets up a reporting system that allows the commander then to 
report sometimes in a classified manner the status of forces as 
it relates to the DOC statement.
    The problem in the past has been that these units have not 
had DOC statements. They have for their general purpose, but 
not for ASA. ASA has been an additional duty, if you will, kind 
of a pick-up game. And so without the DOC statement and the 
resulting support systems that flow from the Department of 
Defense and the United States Air Force, the manning of ASA 
when a unit goes AEF is basically left up to the Air National 
Guard and the Air Force and Air Combat Command to work their 
deals, if you will. And it is kind of an ad hoc system that, 
thanks to the great volunteerism that we have in the Air 
National Guard, we have not missed a lick, but we rely upon 
great support from the United States Air Force to continue that 
mission.
    It would seem to me that the appropriate thing to do--and, 
as General Darnell indicated, we have already started writing 
those DOC statements. It is not anything that I can push up 
through the system. He can pull, I can push, and we can get 
these DOC statements done and then have the Air Force corporate 
system take a look at the importance of the mission. These 
units do not go unevaluated. NORAD does do AFE, alert flight 
evaluations, to make sure that they are trained, ready and 
capable to do the mission.
    But I think the key is--I am from Oklahoma, and actions 
speak a whole lot louder than words. And when I hear comments 
about the mission not competing well against other missions 
that DOD or the Air Force may have, I kind of scratch my head. 
And I think that is reflected in the status that we currently 
have. But I kind of scratch my head, and I ask myself, what is 
more important than defense of the United States of America? 
And when we can match up the priorities that the Department of 
Defense and the United States Air Force give defense of the 
homeland with the resourcing, with the tasking, then I think 
we, no kidding, can step back and say we are resourcing the 
number one mission for this country adequately.
    Mr. Forbes. Should the assigned alert personnel be in Title 
10 status, or do you think Title 32 status is adequate?
    General Wyatt. Title 32 works very well. It allows us to 
field a capability. As soon as that aircraft is launched, they 
go into a Title 10 status. This situation has worked very well 
for us in the past. It allows the type of flexibility that the 
local commanders need to man the mission, but yet it allows the 
pilots to be in the appropriate Title upon execution of the 
mission. It has worked very well for us in the past, and I 
would urge that it be continued.
    Mr. Forbes. I want to just echo what the Chairman said, and 
that is if there is anything this subcommittee can do to help 
move that process along, we want to be here to do it.
    Secondly, to also echo what he said in terms of thanking 
you for keeping us safe. Regardless of what blemishes, warts, 
remedies that we need to do, you have done a fantastic job from 
September 11th on. If you hadn't, people would have been in 
here pointing fingers. So we want to make sure we just take 
this opportunity to thank you.
    And, Mr. Chairman, I yield back the balance of my time.
    Mr. Ortiz. Thank you. And this is what is good about this 
panel. We put you together, GAO, Air Force, so that we can get 
to the bottom of what we need to do to correct anything that 
needs to be corrected.
    Now Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman. Thank you, Mr. 
Forbes, as well for this hearing. And I truly believe, just 
like General Wyatt talked about, this is the number one mission 
of the United States Government, of representatives of the 
United States Government, and it is the number one mission of 
our military.
    The job of protecting our homeland, General, falls squarely 
on your shoulders; it falls squarely on the Guard, and 
certainly on Staff Sergeant Chadwick and your colleagues, 
because the responsibility really lies within your parameters. 
And since 9/11, you have stood 24-hours-a-day alert for the 
last 397 weeks.
    I believe that your mission is unquestionable. But the 
future of this mission, Mr. Chairman, I think is in question. 
And this hearing is so important because I am certainly not 
hearing the answers that I think are necessary for the people 
that we represent. I believe that the Air Force and the 
Department of Defense has failed to plan for the future of the 
ASA. And by failing to adequately study legitimate options for 
resourcing the mission, I believe that we are talking about a 
virtual reality and not about a real-case situation. I think 
our Air Force has generated report after report assuring us 
that serious consideration has been given to the issue, yet we 
have not seen specific planning, and certainly we have not seen 
the action necessary.
    The Air Guard's largest fighter wing, the 162nd, is in 
Tucson, and Tucson is my hometown. It is responsible for the 
overflights of Phoenix, the fifth largest city in the country. 
Ensuring their viability is vital to more than four million 
people in the metro area. During the recent NORAD review of the 
162nd, the inspection team lead said of our alert detachment, 
the 162nd, it is the best F-16 maintenance in NORAD. But 
unfortunately, when you look at the current glide slope--and I 
urge Members to really study this, and I will be passing it on 
to other Members that don't serve on the subcommittee or even 
the committee--unfortunately the 162nd will have no flyable 
aircraft in just six years, and Tucson is just the tip of the 
iceberg.
    Our Arizona experience is indicative of Guard facilities 
across the country who face an uncertain future. As the Air 
Force continues to look over the horizon, they are ignoring the 
rapidly approaching fighter shortfall at home. In eight years, 
80 percent of our Air National Guard aircraft will be unfit to 
fly. This is a hard fact that will result in a serious gap in 
domestic air sovereignty. On any scale measured by any metric, 
an 80 percent loss is simply unacceptable. When those aircraft 
are removed from service, our guardsmen, our pilots, our 
maintenance crews, our support crews in Tucson and across the 
country will principally be out of a job.
    So we have to take this opportunity to prevent a dangerous 
and irreversible shortfall. This is going to require earnest 
leadership from the Air Force and from the Department to choose 
the right option based on the facts. To shore up our Air 
Guard's ability to secure the homeland, I believe that we have 
to choose to invest in more of the legacy aircraft that our 
guardsmen already know how to fly and to fix. We should reject 
service life extension programs that are penny-wise and pound-
foolish. And while fifth-generation aircraft are undoubtedly 
the future for many units, relying solely on that aircraft that 
to this day only flies in the world of PowerPoint is equally 
shortsighted. These aircraft are not expected to be delivered 
to the Guard for more than a decade, and we simply can't wait 
that long.
    My guard unit, my constituents, this committee, the people 
that they represent, the American people, deserve to have the 
answers that we have repeatedly requested from the Department 
and the Air Force. We are not simply concerned about force 
size. We have to sustain a balance in total force structure.
    So with that I have some questions for General Wyatt. 
Specifically, when you look at the chart showing that the 
fighter waterfall will hit the Air Guard over the next 8 years, 
can you please address the consequences of an 80 percent 
reduction in capability and its negative impact on our national 
military strategy?
    General Wyatt. Yes ma'am, I would be happy to, and thank 
you for the question.
    You are exactly correct. We have about--of the 16 fighter 
units in the Air National Guard that are pulling alert, 11 of 
those are F-16 units, and of those 11, 8 are scheduled to reach 
the service life of their aircraft in the fiscal year 2015 
through 2017 year period, Tucson being one of those.
    We have made some progress recently in working with Air 
Combat Command in addressing the recapitalization of those 
aging aircraft. We have not seen a flight plan yet for 
recapitalization that takes care of that problem. There have 
been statements made that the Air National Guard is written 
into the beddown of the F-22 and the F-35, and those statements 
are correct. But the timing of the beddown is what concerns me 
more than the numbers of the aircraft right now, because the 
only plan that I have seen that has been published to date has 
the Air National Guard getting into these weapon systems, as 
you say, about 10 years late to need. So we have been working 
with Air Combat Command to push forward or accelerate the 
fielding of the F-35 and F-22 into Air National Guard units 
early, and we are making some progress there.
    But the thing to consider is that the Air Force has other 
competing missions that they must weigh. And this goes back to 
my previous statement, that as we weigh and balance the 
importance of all of these very important missions, I have a 
hard time understanding why defense of the homeland is not the 
number one and should be focused on for early capitalization. 
If the Air National Guard could get into the earlier fielding 
of these weapon systems, this problem would be solved. If it is 
not solved, then some other force will have to pick up that 
mission, and it detracts from the Navy's mission, the Marine 
Corps' mission and the overseas fight that the United States 
Air Force has.
    So I share your concern, and that is one of the three main 
issues that I think the GAO report and this committee should 
rightly be interested in.
    Ms. Giffords. Mr. Chairman, I know my time is up, but I 
would just like to emphasize that if we lose these guardsmen 
and guardswomen, we will not get them back. Right now we have a 
force that functions very well, highly trained, highly 
competent; obviously, as we heard from Staff Sergeant 
Chadwick's biography, very committed to the cause. But I think 
that we are headed in the wrong direction by changing course 
and not supplying our units with what they need.
    Mr. Ortiz. Thank you so much. And if necessary, we will 
have a second round of questions.
    My good friend Mr. LoBiondo from New Jersey.
    Mr. LoBiondo. Thank you, Mr. Chairman, very much for 
holding the hearing. I also would like to thank my colleague, 
Congresswoman Giffords from Arizona, for joining in with me in 
trying to raise the level of attention, should we say. And the 
level of frustration, at least from my part, and I think from 
some of my colleagues, is really growing. We for years now have 
been hearing that a plan will be unveiled, a plan will be 
developed, solutions will be laid on the table. And, Mr. 
Chairman, I don't know how long we wait on this, but the clock 
ticks.
    We have heard what is going to happen in 8 years with 80 
percent of our force. I represent the 177th Fighter Wing out of 
Atlantic City, arguably one of the most strategically located 
homeland security bases in the Nation by virtue of their 
proximity to New York City and Washington, D.C., and we have 
all of the same concerns without getting any of the answers.
    Mr. Verga, would you say that protecting the homeland from 
direct attack is the number one priority as outlined by the 
National Defense Strategy as we know it?
    Mr. Verga. Yes, sir. I would agree with that. It also 
enjoys a very high priority in what is called the guidance for 
the employment of the force, which is what we do. We tell the 
services and combatant commanders how to actually employ the 
force.
    I would say that I am a little bit disturbed--is probably 
the word I would use--about a direction I think I see some of 
the comments going in, and that is the sort of fencing and 
dedicating of this mission to the Air National Guard. While we 
have traditionally employed the Air National Guard part of the 
total force to do this mission, I do think we must keep in mind 
that it is a mission broadly for the Department, not 
necessarily a mission limited to any single component of the 
Department. I personally do not think we are going to suffer a 
gap in the air defense of the United States any time in the 
foreseeable future due to the priorities that this is afforded.
    I would separate that in my mind from the equipping and 
recapitalization of the aircraft currently assigned to the Air 
National Guard for their support of the total force mission. So 
that is just a comment I think I would like to make. The 
mission is not going to suffer.
    Now can I say authoritatively that the fighter wings that 
you are concerned about are going to be first up for getting 
replacement aircraft? No, I can't say that. That is a master 
plan that the Air Force will have. But the assignment of 
sufficient forces to accomplish the mission of defending the 
air space of the United States and maintaining air sovereignty 
is unquestioned.
    Mr. LoBiondo. I am thrilled to hear that but maybe it is 
just my mind or maybe some of my colleagues can help me out or 
the chairman, if the mission is protected and guaranteed, then 
there has to be some ability to articulate how that is going to 
happen. Because unless the Air Force is going to dramatically 
increase its numbers, and we don't know what the tempo is going 
to be in Afghanistan or even maybe what it will be in Iraq or 
some other location around the world, and clearly the assets 
that the Air Guard is using are running to the end of their 
useful life, so we can say, well, okay, maybe we don't need Air 
Guard units, but in my mind, if an Air Guard unit goes away, it 
goes away. You can't flip a switch and bring it back. These 
folks are the best bang for the buck I think we have in the 
military. And part of my frustration is that we don't have an 
understanding of how the protection of the mission will be 
accomplished.
    General Darnell, do you believe that we are going to have a 
problem in 6, 8, 10 years with the fleet reaching the end of 
its useful service?
    General Darnell. Congressman, we will ensure that there is 
no problem, and our dilemma at this point right today is we 
have a Quadrennial Defense Review (QDR) discussion coming up. 
We have to wait until we get on the back side of that to be 
able to definitively give you something as of today to say 
exactly where we will be at. But as General Wyatt said, we have 
been working very closely with the Guard, ACC has, and this is 
not something we are ignoring. We are trying obviously to 
ensure that the Nation has the safety and defense that it 
requires.
    As Mr. Verga said, we will ensure, whether it be through 
the Air Force or a combination of forces, that this Nation is 
defended.
    Mr. LoBiondo. Thank you, General. But Congresswoman 
Giffords has a chart that is easily understood. And what we 
would like to see is that what you are telling us about 
basically don't worry, we are going to have a plan and it is 
all going to be okay, we would sort of like to see that. I 
think the chairman has articulated he would like to see it. I 
think GAO talked about that a little bit. And I would feel a 
whole lot better if you could come to the full committee or to 
this committee and be able to articulate why it is that we 
shouldn't be concerned. Because if you look at the chart and 
you look at the aircraft that are coming offline, and you look 
at the challenges that the Air Force has, at least to me, as 
just an average Member of Congress, I can't connect the dots in 
my mind.
    I know I am running tight on time, but General Wyatt, one 
question for you. Do you have an opinion as to what the 
solution would be for this fighter gap problem? If you had your 
ability to make your choice, not worrying about what somebody 
else was going to say, what would you say the choice would be 
to fix this problem?
    General Wyatt. Thank you for the question, sir, and let me 
try my best to answer that. And Mr. Verga makes a good point 
that this mission should not necessarily be fenced to the Air 
National Guard, although I would maybe counter that with the 
fact that the Department of Defense has sought willing 
participants for this mission from across the services, and the 
best resolution, primarily for expense purposes that you 
pointed out, the most efficient force is the Air National 
Guard. That is the solution in my mind that works the best.
    I tried to make the point that recapitalizing the Air 
National Guard fleet should not be considered as competitive to 
recapitalizing the United States Air Force because these same 
units are rotated in and out of theater in the AEF rotation. So 
it is not strictly a fencing or dedication argument, as has 
been proposed, but rather a recapitalization of the United 
States Air Force, a portion of that recognizing the importance 
of mission number one and recognizing the unique ability and 
cost efficiencies of the Air National Guard in performing that 
mission. My preferences would be that when we recapitalize, 
``we'' being the United States Air Force, that we recapitalize 
as a total United States Air Force, and we field these 
capabilities concurrently and proportionately between the 
active duty, the Air Force Reserve and the Air National Guard. 
And if we do that, we can take care of the issue that you have 
pointed out with the waterfall charts. We can do this through 
the concept of associations and recognizing that there is great 
benefit, especially in the ASA mission, of the distribution of 
locations offered by the Air National Guard. We are 
strategically located, as you pointed out, in Atlantic City, 
New Jersey, from your constituency, but if you take a look at 
the locations of all the ASA sites in the Air National Guard, 
they are located where they can quickly react to a threat that 
may come from any of the 360 degrees of air space that we 
protect. But through the construct, not only recapitalization, 
but construct of associations where we mesh active duty and Air 
National Guard and in some cases Air Force Reserve, I think 
that is an answer, too, in addition to the recapitalization 
issues that we have talked about.
    Mr. LoBiondo. I thank you, General. And I am in complete 
concurrence with your answer.
    Mr. Chairman, I hope you will found ways to continue to 
keep the heat turned up on getting some of these additional 
answers. Thank you.
    Mr. Ortiz. I think that the gentleman has raised some very 
important points. We would like to see the replacement of these 
fighters that are getting old. We would like to see a budget. 
We would like to see the training. We would like to see what 
the National Guard is going to do. I think that you are raising 
some very important issues here.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. Mr. Verga, you said that the 
mission is not going to suffer. And I grew up in a very large 
family. And we had work lists every single day twice a day 
because my mother knew the mission of that Shea household would 
suffer if we didn't all know who was doing what. And so I just 
wanted to take a little bit of the comments that were in the 
GAO report and perhaps Ms. D'Agostino will talk about it, but I 
am concerned NORAD had not conducted routine risk assessments 
to determine ASA operational requirements, including the 
appropriate level and types of unit personnel and aircraft for 
the mission, and that the Air National Guard units that are 
performing the ASA mission do not have the mission included in 
the designated operational capability statement. Is that so, 
Ms. D'Agostino?
    Ms. D'Agostino. Yes, ma'am. Yes, it is.
    Ms. Shea-Porter. And does that worry you, like it worries 
us?
    Ms. D'Agostino. It concerned us. Let me clarify that. NORAD 
did do three assessments in response to individual requests 
from the leadership at the Department largely looking to save 
money. And each time they did these risk-based assessments, the 
current number of units and assignment of aircraft, et cetera, 
and personnel were apparently validated. So that there was no 
reduction and no change from the 18-unit, the current 
configuration.
    I guess our only concern is that you know things change and 
the threats are asymmetric, that it makes a lot of sense to do 
risk assessments on a routine basis and also in light of the 
current fiscal constraints that we are facing as a nation, it 
makes sense to take a good hard look at your requirements. And 
we think the best way to do this is through a risk-based 
assessment process, and that would consider threats, 
vulnerability, criticality, and then you have to consider 
resources as well and you would prioritize your needs or your 
requirements and then resource those highest priority 
requirements.
    So that is why we suggested that they do a routine risk 
assessment process to determine their requirements and so they 
have valid justification for what they request.
    Ms. Shea-Porter. Are you also concerned about a diffusion 
of responsibility when so many different groups have a piece of 
it?
    Ms. D'Agostino. We were very concerned that the air 
sovereignty alert mission was not on the DOC statements of 
these units and because of that, it really created, I don't 
want to use the ``waterfall'' thing, but it has a number of 
rolling consequences for the units in terms of, you know, their 
readiness, that is not put into the readiness system, they are 
not measured, their training isn't checked up on. So as an Air 
Force responsibility, we thought that they needed to formally 
assign the mission to those units, and that is why we 
recommended that.
    Ms. Shea-Porter. Obviously I concur. And I would like to 
associate myself with the Congresswoman's comments. I have the 
same concern. I think the American public would be horrified to 
know, let me make sure I have the count right, but that in 2001 
we had 14 aircraft designated for this mission, is that 
correct? And now we have 54.
    So let me ask the next question, please. And I don't know 
if it makes any sense or not, but knowing that we are facing a 
problem with a shortage of aircraft and knowing the other 
circumstances, does it make any sense to have more active duty 
wings at Air National Guard bases? Would that in any way help 
alleviate some of the pressure at least for the planes 
themselves and maybe for some of the personnel?
    I have absolutely no idea if that is a reasonable question 
or not but it occurred to me.
    General Wyatt. I think one way to answer your question 
would be to go back to a previous comment I made about 
associations. As the number of fighter aircraft available for 
the defense of the country and execution of all of our 
missions, including those overseas, I think it makes sense to 
look at ways to become more efficient in the recapitalization, 
in the placement location of those capabilities and in the 
different components, strengths and weaknesses as we try to 
figure out a better way to proceed forward.
    The days of unconstrained capability are long gone. And I 
am very appreciative of the financial concerns that the country 
is experiencing right now. And I think one of the ways to make 
sure that we most efficiently meet the taskings of this 
mission, but all of our missions overseas, is to place a great 
importance upon the association construct that considers 
location and some of the ideal locations that the Air National 
Guard provides for these particular missions, but we also need 
to recognize that there are some ideal locations where the 
active duty Air Force can provide for these types of missions. 
And so I think location should not be determined based upon 
whether it is Air National Guard or United States Air Force but 
where the location best serves the interest of the country. And 
then as we put those units together because we have fewer air 
frames to fly but we need to maintain the pilot proficiency, 
the maintenance proficiencies, and we need to, especially in 
the Guard, we need to provide this country with a surge 
capability--I mean that is what makes the Air National Guard 
the most efficient force--is that not only do we handle the 
day-to-day ASA and our share of the AEF rotations, but we are 
also available for that surge capability. If we have limited 
numbers of airplanes, you nevertheless need a surge capability 
because pilots and maintainers cannot work 24 hours a day. If 
you have to deploy or you have a situation in the United States 
of America that requires 24-hour-a-day operations at a much 
greater level than the current steady state, you need to have 
access to that surge capability.
    And I think the association construct, whether it is what 
we call active associations where the active duty comes to a 
Guard location or whether it is the classic association where 
Guard members go to the active duty, we need to do the smart 
thing. We need to do both of those in locations that make sense 
for air sovereignty alert, but also makes sense for some of the 
other missions that the Air Force does.
    Ms. Shea-Porter. Thank you. I know my time has run out but 
I would also like to thank the men and the women of the 
National Guard. We are still working on trying to make things 
right for their service. Thank you and I yield back.
    Mr. Ortiz. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman. General Wyatt, one 
issue I want to raise, a Colorado specific issue, is Buckley 
Air Force Base, which was a former National Guard facility, but 
it has our--we have the wing component or the F-16 component of 
the Air National Guard there. They are hopefully going to go to 
F-35 at some point. There is some concern, my district has the 
eastern edge of that coming up to the base and I think there is 
concern about encroachment onto, in and around the base where 
we might lose that flying mission. I wonder if you might 
comment on any efforts made there to preserve the flying 
mission there relative to development around the facility.
    General Wyatt. Congressman, as you are aware, the Colorado 
unit is one of those units that performs ASA. My good friend 
Mike Edwards, the Adjutant General of Colorado, himself a 
fighter pilot, is very attuned to the issues and challenges and 
in fact he contributes greatly to the expertise within the Air 
National Guard that addresses these issues.
    You speak of encroachment. I have been to Buckley several 
times. I hate to admit the first time I was ever in an F-100, 
flown A-7s in there, been there on a number of different 
aircraft, and I remember the days when Buckley was kind of out 
there on its own. And you are right, there are encroachment 
activities. And that is true of some Air National Guard bases. 
It is also true of active duty bases. And I think we need to be 
cognizant of that as we look forward to forward basing.
    But in talking to General Edwards, I am aware of some 
significant efforts by your leadership and the leadership, the 
local leadership in Colorado, to be cognizant of the 
encroachment issue and do what can be done to make sure that 
that does not adversely affect the possibilities of the 
Colorado Air National Guard in this recapitalization effort.
    I hope that answers your question.
    Mr. Coffman. General Wyatt, just another comment. I have 
introduced House Resolution 1879, the National Guard Employment 
Act of 2009. And it takes into account the folks that are 
called up within the United States as well as dealing with the 
five-year limit. I wonder if you might be able to comment on 
that.
    General Wyatt. Yes, sir, I would be happy to. And thank you 
very much for your interest in that particular area because it 
demonstrates sometimes what unintended consequences of some 
really good intentions to begin with. We talked about the 
status that guardsmen are in when they perform the ASA mission, 
and up until about 2005 it was Title 10 status for not only the 
pilots when they launch but also as they sat alert and for some 
of our maintenance crews and supporting personnel. In 2005, 
because Title 32 status gives the wing commanders a little more 
flexibility in providing manpower for that mission and handling 
their other taskings, the law allowed Title 32 people to do 
that mission, converting to Title 10 when the mission was 
launched, which I think is the proper way to do that.
    The provision in the Uniformed Services Employment and 
Reemployment Rights Act (USERRA) that you talked about has a 
five-year limitation. The USERRA protection is only available 
for five years unless--there are some exceptions to that--
unless you were called to Title 10 service or to serve in OCO, 
Overseas Contingency Operations, or any other similarly 
situated wars. When we went to the Title 32 status, that same 
protection was inadvertently, I think in my mind inadvertently 
not provided for our Title 32 folks, so that as they do the 
same mission they were doing in Title 10 but now simply because 
of their conversion to a Title 32 status, they lose that 
exception, and now after 5 years of doing ASA, they have no 
reemployment rights. I don't think that was the intention of 
the original legislation, but your legislation fixes that 
problem and provides that same sort of relief that we thought 
was the right thing to do under Title 10 for doing that same 
mission to Title 32 folks that are doing the ASA mission.
    So I thank you very much for your attention to that problem 
and helping fixing it. Thank you, sir.
    Mr. Coffman. Thank you, General Wyatt.
    Any other comments by the panel? Mr. Chairman, I yield back 
the balance of my time.
    Mr. Ortiz. Mr. Taylor.
    Mr. Taylor. General, very quickly, before I yield my time 
to Ms. Giffords, we had the unfortunate death of a National 
Guardsman the night of Katrina. Because he died while under 
Title 32 status, his widow and children received a smaller 
death benefit than had he died under Title 10. Now with the 
help of General Blum and General Casey, we were able to fix 
that. I am just curious. Is that still the norm, if one of your 
pilots dies on a training mission, is married, is his widow 
still, would his widow receive a smaller death benefit than if 
he died under Title 10 status?
    General Wyatt. Congressman, there still are differences in 
the benefits that are available under the varying different 
statutes, you know, active duty in support of operations, State 
active duty, Title 32 and Title 10. We are making some progress 
in equalizing those or making those more equitable. I think you 
will find guardsmen understand the difference that they are not 
full-time active duty members serving in Title 10 status, and 
certainly there will be some differences between the benefits 
that are available under the different statutes. But I think 
what they are looking for is an equitable treatment.
    The particular issue that you point at is one of those 
areas where they--there needs to be equity because when a 
person gives their life regardless of the status, we as a 
country, in my opinion, need to take care of the survivors of 
that airman, soldier, sailor or Marine.
    Mr. Taylor. If you feel free to do so, I am requesting you 
to put that statement in writing. I would like to have it. I 
think it is one of the things we ought to try to address this 
year in the defense authorization bill.
    Mr. Chairman, with your permission I am going to yield the 
remainder of my time to Ms. Giffords.
    [The information referred to can be found in the Appendix 
on page 129.]
    Mr. Ortiz. Ms. Giffords is recognized.
    Ms. Giffords. Thank you, Congressman Taylor.
    General Wyatt, given the Department's strategy in terms of 
closing the F-22 production line and reports of the Test and 
Evaluation Directorate, specifically for the delays in the 
Joint Strike Fighter program, can you please discuss in the 
limited time we have left the bridging strategy to continue to 
use the fourth generation aircraft until fifth generation 
solutions are available to the Guard?
    General Wyatt. I will be happy to give it a shot, 
Congresswoman. The question sometimes asked, you know, what 
platform is, would be good for this mission? And I have 
recognized that we are in a fiscally constrained situation. I 
am interested in capabilities. I am interested in being able to 
do the mission. The Air National Guard is going to do this 
mission with whatever platform Congress decides is the 
appropriate platform, because after all the Constitution 
provides that Congress raises and equips armies and air forces. 
And I appreciate that fact. I also appreciate the fact that 
sometimes what we would ideally like to have may not be 
affordable. I caution against having a separate platform for 
ASA from United States Air Force for the reasons that I 
previously discussed in that these units also perform AEF 
rotations and they need to--whatever platform is finally 
decided or whatever options are finally decided upon by 
Congress I would hope takes into consideration that these units 
also perform AEF rotations and need to be able to fuse with and 
use the same capabilities as any other unit in the United 
States Air Force or the Department of Defense.
    As far as options, you mentioned some of those. We are 
looking at fifth generation fighters. I think the decision 
needs to be made, where does air defense and defense of the 
country range on the scale of priorities of the missions that 
the Air Force will be required to perform? And I think our 
decision on that should be driven by the importance of the 
mission.
    In the fiscally constrained situation that we are in, if 
that is not possible, certainly there are fourth generation, 
4.5 generation options out there. There is also service life 
extension options out there. Each one has their advantages over 
the other. Each one has disadvantages. And I prefer not, you 
know, there are a lot of different scenarios that we can get 
into, what if this happens or what if this happens. But my 
concern is that the capability is available for the country for 
the long term and that it not end in fiscal year 2015, 2016, or 
2017.
    So I think whatever options that Congress decides is the 
right thing to do, and I have every confidence that Congress, 
in its wisdom, will decide what is the right thing to do, that 
capability should be applied towards this mission set, whether 
it is the Air National Guard, United States Air Force, Navy or 
Marine Corps doing the mission. It needs to be a capability 
that the country expects for the number one mission for our 
military services.
    Ms. Giffords. General Wyatt, do you think upgraded models 
of fourth generation aircraft like the Block 50 F-16s have the 
sufficient capability to conduct the ASA now and also for the 
years ahead?
    General Wyatt. I think what you have to look at is the 
rising threats that we see out there with the maritime threat, 
with cruise missiles, with UAVs, whether they are sea base 
launched or launched within our borders or without our borders, 
with some of the capabilities of weapons of mass destruction 
that can approach the United States from any sector. This 
mission, this defense, is a lot different than an offensive 
mission overseas. Because if we have the option overseas, we 
decide the time, the place, and the method and the weapons 
systems of choice. We don't have that luxury in defense of the 
United States. We have to be ready 24 hours a day, 365. We have 
to defend from all axes of attack. We have to use our 
imagination, if you will, to think of platforms that, or 
capabilities that may be used to attack the United States. So 
as we try to answer that question, does fourth generation, 4.5 
generation, have the capabilities to provide the defense we 
need, we must first of all look and try to analyze what sort of 
threat we are talking about. The use of radar, I mentioned that 
in my opening statement, is extremely important because it is a 
leap in technology that allows us to meet some of those 
challenges that I just talked about.
    Again, if you consider, and I know cost is going to be a 
consideration, but if we are in the situation where Congress 
decides that we simply can't afford fifth generation airplanes, 
then we need to take a look at the capabilities necessary to 
meet those threats that I just talked about, and whether that 
be fourth generation, third generation fighters, whatever is 
the best answer, looking at the whole problem, not just ASA, 
but our other continuing missions, whatever answer Congress 
gives us will be what we use to defend the country in this its 
number one mission.
    Ms. Giffords. Thank you.
    Mr. Ortiz. My friend, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. I will be brief. I was 
excited when I heard General Darnell's comment about the 
mission statement and including that for the Guard, and then, 
Mr. Verga, I heard your comments and I just want to clarify the 
two. I understand about not being fenced in. But I hope your 
statements were not to be interpreted to mean that you 
disagreed with General Darnell's position that the mission 
statement would be written to include that for the Guard 
because I don't know how else we would get the training, 
inspection and capitalization. I just wanted to clarify that if 
I could.
    Mr. Verga. Absolutely not. We fully support the Air Force's 
efforts in doing that. Their mission of organized training and 
equipping forces to provide to the combatant commander to carry 
out the missions that are assigned from the President through 
the Secretary to that commander is extremely important. My only 
point was that we need to not lose sight of the fact that it is 
a mission for the total forces of the Department of Defense of 
the United States, not any particular subcomponent of it. And I 
just wanted to make sure that we don't lose sight of that.
    Mr. Forbes. And the last thing I will say is really more of 
a comment than a question. From the outset of this year we have 
been asking this question to try to get into the mindset of 
Department of Defense as to how you are setting your priorities 
so that we can know. General Wyatt said something incredibly 
important when he said that they would use whatever platforms 
Congress deemed to be appropriate in their wisdom in making 
those decisions. I have an enormous fear right now that we have 
had a sea change, and the big concern that I have, General 
Darnell had mentioned that you wanted to get on the back side 
basically of QDR when you are doing this planning. I fear that 
we have shifted now. Instead of having a strategy that is 
driving our budget, I think we are looking at our budget 
driving our strategy. And one of the things that I am very 
frightened when I see these gag orders coming out to the 
Department of Defense for this cone of silence where the people 
that are making this information and have the information, 
General Wyatt, that we need to make those decisions, and they 
can't even talk to us, that they are barred from doing that, I 
think that is an unconscionable action to take place. I think 
it is a dangerous action. It is one that I hope we will all 
stand up and say we can't afford to not get this information. 
And just one other thing, and the chairman of Seapower 
Subcommittee knows far more about this than I do, but when we 
begin to do things like moving the Inspection and Survey 
(INSURV) inspections and classifying those, the danger with 
that is that that information--we can get that communicated to 
us but we can't communicate it to the general public or to the 
press or anybody else. And I think that is a dangerous avenue 
for us to go down because, General, I think it keeps us from 
making the wisest decisions and getting those appropriate 
platforms.
    And Mr. Chairman, with that, I will yield back.
    Mr. Ortiz. Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    Just real quick, General Wyatt, prior to 2003, when we were 
flying combat air patrol, when the Guard, many Guard units were 
flying combat air patrol in Iraq in the no-fly zones, it 
obviously took a lot of resources relative to flying the ASA, I 
am assuming relative to flying the ASA mission, I assume we had 
more units deployed in Iraq than doing the ASA. I wonder if you 
can comment on that and then comment on our capability. It 
seems that in Iraq and Afghanistan right now that our fixed 
wing missions are not as robust as they normally would be in a 
conventional versus a counterinsurgency conflict. I am just 
wondering if we got engaged in a conventional conflict, does 
the Guard have the capability of performing both missions, ASA 
and a conventional mission, with the Air Force?
    General Wyatt. Thank you for the question, Congressman. The 
answer to your question is that our units do the ASA mission 
not as part of their DOC statement but as part of the mission 
assignment and we have addressed actions that we, as an Air 
Force and the Department of Defense, will take to correct that. 
But these units that pull ASA do do the AEF rotations. We are 
always striving to modernize the Air National Guard equipment 
that we have because, as you know, sometimes the Air National 
Guard doesn't have what I call the front line capability that 
the active duty Air Force has. We try through our modernization 
programs and working with the Air Force to provide the 
capability that allows our systems to fuse with and become a 
relevant partner with the active duty force in these overseas 
rotations.
    The best example I can give you would be out of my personal 
experience as a wing commander and as a young pilot that my 
leaders decided that it was important for the Air National 
Guard--we were in A-7s at the time converting to F-16s, and the 
Air National Guard had no precision guided targeting capability 
at that point in time. The Air Force recognized that as a 
requirement, but because of their budget limitations could not 
fund targeting pod acquisition for the Air National Guard. So 
thanks to Congress' insight in the need, relevant need for that 
capability, through the National Guard and Reserve Equipment 
Account (NGREA) we were able to acquire targeting pods and have 
continued to do so through today's date that allows our systems 
and our capabilities to more fully mesh with and be a part of 
the total force as we engage in combat.
    We continue to do that today, and I would hope that one of 
these days we will get to that point where a capability may be 
funded across all three of the components proportionately and 
concurrently. That is what I am pressing for. But in the 
interim period of time we will continue our efforts--and it is 
not just the fighter fleet, it is the large aircraft fleet with 
the LAIRCM, the large aircraft infrared countermeasure systems. 
We are using NGREA funds to help these self-protective systems 
in these airplanes so they are more relevant in the warfight 
overseas. And we will continue those efforts with the help and 
support of Congress.
    Thank you, sir.
    Mr. Ortiz. Thank you so much. I think that we had a very, 
very good hearing today. And you know, sometimes Congress makes 
up committees and they play a very important role. And 
sometimes in this case we do have a check and balance system 
and because we are all seeing it from the same page as you. 
There are some weaknesses on one side maybe the other side can 
correct it. But I want to thank all of you for being with us 
today. And we do have a good check and balance system. And 
thank you for being candid with us. Remember, we are all 
singing from the same page and if it is a budget problem, if it 
is an equipment problem, whatever you need, let us know. We are 
here to work with you. But you know we have huge 
responsibilities. We see the big, big picture being ready to 
defend this country. At times we see that air fighter has been 
grounded. Whether they are Navy, Air Force, or whatever, they 
are grounded. We want to be sure that we have the right 
equipment, the right personnel to defend this country.
    One of our key members of this committee, Chairman Reyes, 
who is chairman of the Intelligence Committee, couldn't be here 
with us today. He had a death in the family. And his mother-in-
law passed away, and this committee offers our condolences to 
Chairman Reyes.
    Being no further business, this committee stands adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 22, 2009
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 22, 2009

=======================================================================
      
      
                [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
          
=======================================================================

                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 22, 2009

=======================================================================
            
                [GRAPHIC(S) NOT AVAILABLE TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 22, 2009

=======================================================================
      
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR

    General Wyatt. Federal entitlements for Air National Guard members 
who die on Active Duty (Title 10) or Active Duty for training (Title 
32) are equal. In addition, many States offer additional death benefits 
for their guard members who die in the performance of their duty. These 
benefits vary greatly from State to State.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Every Air National Guard base has a Casualty Assistance 
Representative assigned. This individual works with the Air Force 
Casualty or the Air Reserve Personnel Center Casualty office (depending 
on the status of the member at the time of death) and provides benefit 
counseling to survivors.
    Thank you for your inquiry regarding Title 10 vs. Title 32 death 
benefits for members of the Air National Guard. We appreciate that the 
Congress continues to recognize the sacrifice of our members and that 
regardless of status, when a service member gives their life, we as a 
country, take care of the survivors of that Airman, Soldier, Sailor, 
Coast Guardsman, or Marine. [See page 24.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 22, 2009

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. The GAO report states that ``the Air Force faces two 
challenges to sustaining its ASA capabilities over the long-term--(1) 
replacing or extending the service life of aging fighter aircraft and 
(2) replacing ASA units with equipment and training personnel when they 
deploy.''
    In your review, how would you say the Air Force has performed and 
is performing on those two key challenges?
    Ms. D'Agostino. We found that the Air Force did not have plans to 
manage or deal with either of these challenges even though they could 
adversely affect the long-term sustainability of ASA operations.
    Ms. Giffords. At this rate, what impacts will affect the Air Guard 
and the ASA mission?
    Ms. D'Agostino. Until the Air Force develops plans to address the 
availability of fighter aircraft to conduct ASA operations, our 
analysis of Air Force and Air National Guard data (as of April 2009) 
reflects that there will be a number of ASA sites, including those 
supported by Air National Guard units, that will not have enough viable 
aircraft to train and conduct both ASA operations and expeditionary 
missions (e.g. military operations in Iraq). \1\ Additionally, unless 
the Air Force develops a process to replace ASA units with equipment 
and trained personnel when they deploy and as they transition to 
different aircraft, the voluntary process that ASA commanders currently 
use to find replacements may continue to be inefficient and burdensome.
---------------------------------------------------------------------------
    \1\ The number of ASA sites that could be without viable aircraft 
varies depending on the assumptions that are made. Our January 2009 
report entitled, Homeland Defense: Management Actions Needed to Improve 
Management of Air Sovereignty Alert Operations to Protect U.S. Airspace 
(GAO-09-184), identifies the assumptions we made while analyzing the 
Air Force and Air National Guard data.&
---------------------------------------------------------------------------
    Ms. Giffords. Do the current projections for Air National Guard 
capabilities meet our nation's ASA mission requirements?
    General Wyatt. The current projections for the Air National Guard 
capabilities meet the nation's near-term ASA requirements. The Air 
National Guard and the Air Force are working together to ensure there 
is no gap in mid-term capability and solutions are in place for the 
long-term capability. The solution to ensure the availability of 
aircraft for the United States' requirements in the long term will 
require a combination of effective legacy fleet management, force 
shaping, and recapitalization with a Total Force approach. We are 
working with the Air Force to produce this solution and ensure the 
strategic requirements of the United States are met.&
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FRANKS
    Mr. Franks. General Darnell, in reading the GAO report and 
testimony one would think ASA operations and locations are not 
routinely assessed to include personnel capability to perform the 
mission, training, equipment, and mission responsiveness. I was under 
the impression these units do receive regular oversight in the form of 
readiness inspections. Can you please discuss briefly what these 
readiness inspections include, how they assess the unit's mission and 
your level of confidence in their results as they pertain to unit's 
ability to conduct the ASA mission?
    General Darnell. The Inspector General (IG) for the North American 
Aerospace Defense Command (NORAD) performs inspections and evaluations 
that provide a comprehensive assessment of the units' readiness to 
perform the Operation NOBLE EAGLE (ONE) mission. Specifically for ONE, 
the NORAD IG is the only entity that evaluates unit readiness. However, 
all Air Force Major Command (MAJCOM) gained units which participate in 
ONE (Air Combat Command, Air Mobility Command, and Pacific Air Forces) 
have their primary missions evaluated by their respective MAJCOM IGs 
during Phase I and Phase II Operational Readiness Inspections (ORIs).
    Mr. Franks. General Darnell, the GAO report talks at length about 
the service life of our existing F-16 and F-15 aircraft and the impact 
that will have on the ASA mission and homeland defense. General Renuart 
mentioned in his testimony to the SASC last month the Air Force was 
working on a plan to bridge capacities of our existing F-15 and F-16 
fleet as the F-22 and F-35 become operational. Can you please discuss 
for a moment some of the options that are on the table? What concerns 
do you currently have with the transition or any potential gaps that 
may exist over the next 5, 10, 15 years? In addition, can you please 
discuss the role of tanker (air-refueling) aircraft in the ASA mission? 
Considering fighter operations are pretty dependent on tanker aircraft 
availability, do we currently have, or do you foresee, a problem with 
tanker aircraft support over the next 5-10 years?
    General Darnell. Homeland defense is DoD's first priority and the 
Air Force is committed to the ASA mission now through the long term. As 
you know, long term recapitalization of the fighter and tanker fleet 
requires many years. Within the funding available, the Air Force must 
maximize the life of the existing aircraft until they can be replaced. 
All of the options to ensure the ASA mission remains viable are 
dependent on the life expectancy of these airframes.
    The Air Force, in conjuction with DoD, is currently developing 
plans to ensure we can meet the combatant commander's requirements for 
the defense of the Nation--whether it is with Air National Guard 
aircraft or in combination with active duty assigned aircraft. There 
are many moving pieces as we look at all the different Air National 
Guard units around the country to determine the best alignment of our 
limited resources. We anticipate an update from the Quadrennial Defense 
Review regarding national requirement, and subsequently, the Air 
Force's requirement for this critical mission.
    Tanker aircraft are a critical force multiplier for the Air 
Sovereignty Alert mission through ground alerts, scheduled air 
refueling, and airborne orbits. Assuming that the number of tankers 
required by Combatant Commanders does not increase and unforeseen 
reliability or availability problems do not arise, the Air Force does 
not foresee any shortfalls in tanker support for the ASA mission today 
or in the next 5-10 years. However in larger context of meeting 
National Military Strategy, Mobility Capability Study 05 identified a 
required tanker force of between 520-640 tanker aircraft. Currently, 
there are 474 legacy tankers (415 KC-135RT, 59 KC-10A) in the Air Force 
fleet. The Air Force is taking action to minimize risk by modernization 
of the current tanker fleet and recapitalization through the KC-X 
program to fill tanker fleet requirements.
    Mr. Franks. General Wyatt, there has been a great deal of 
discussion on aircraft availability and long term sustainment of the 
ASA mission, however GAO sited ``Personnel Issues'' and ``Funding'' as 
the two highest factors identified by ASA Commanders as ``Moderately or 
Greatly Impacting Units' Ability to Conduct ASA Operations.'' Can you 
please discuss for a moment some of the Personnel Issues that are 
driving these Commanders to list this as one of the highest factors of 
concern?
    General Wyatt. The ``Funding'' and ``Personnel Issues'' identified 
in the GAO report highlight the historical need to utilize various 
funding sources for the part time guard members that were put on full 
time status to perform the ASA mission for the United States. The full 
time manpower used to execute the ASA mission at ANG units is now 
funded every two years in the POM cycle. Previously, the Air Force 
corporate structure did not fund the requirement at 100%, which meant 
that various other sources of funding were required to cover the 
difference in execution year funding. This funding often occurred last 
minute and would occasionally require members to change types of 
orders, sometimes even in mid-fiscal year. This instability in funding 
causes members to experience interruptions in medical benefits, monthly 
pay, leave tracking, and concern about their future employment. The 
current ASA requirement for the full time manpower is funded at 100% in 
the FY10 PB.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. BRIGHT
    Mr. Bright. According to the National Guard posture statement, 80% 
of Air National Guard F-16s will begin to reach the end of their 
service life in 8 years. Unfortunately, the F16s we fly at Dannelly 
Field are part of that situation with service lives ending generally 
between 2017 and 2020. It is my understanding that new F22s and F35s 
will be provided to the Air Guard at some point later than that so it 
appears that there will be a ``fighter gap.'' If Air Guard fighter 
units have no planes to fly, I can't imagine the units will survive. 
This is of deep concern to me because we fly F16s in the Air Guard in 
my state. Does the Air Force have a plan to address this ``fighter 
gap'' in Air National Guard F16 units like mine in Alabama?
    General Wyatt. The Air Force is concerned about F-16s nearing the 
end of their service life. The AF will sustain the F-16 Block 30 
aircraft to ensure they meet the programmed 8,000 hour service life. 
The AF also has plans to transition some ANG units currently flying F-
16s to other fighters such as the newer block F-16s, A-10s and F-15s. 
These transitions will enable us to bridge the gap between the F-16 and 
its fifth generation fighter replacement.
    With the current fiscal constraints on our fifth generation fighter 
procurement schedule, some units currently flying fighter aircraft will 
transition to other relevant AF missions. Several ANG units have 
already transitioned to emerging mission sets that are vital to our 
national defense such as the unmanned aerospace system, and direct 
command and control support for our combatant commanders. These 
missions are critical to today's war efforts, homeland defense, and 
wartime readiness. These new mission sets have kept these units 
relevant to today's mission requirements and the future needs of our 
nation's defense.

                                  <all>

</pre></body></html>
